CO!v1Ivl0DITYFUTIJRES TRADING COMMISSION

  SEMIANNUAL REPORT
        OF THE




   OFFICE OF THE
INSPECTOR GENERAL



                           .     ('\
                         ':'.,   0




FOR THE PERIOD ENDING SEPTEMBER30,2002
                     u.s. COMMODITY FUTURES TRADING COMMISSION
                                         Three Lafayette Centre
                              1155 21st Street, NW, Washington, DC 20581
                                        Telephone: (202) 418-5110
                                        Facsimile: (202) 418-5522


                                          October 30, 2002
    OFFICE OF
INSPEC10R GENERAL



  TO:           James E. Newsome
                Chainnan

  FROM:         A. Roy Lavik    Q Q£-
                Inspector General

  SUBJECT:      Semiannual Report of the Office of the Inspector General

         Attached is the Semiannual Report ofthe Office of the Inspector General for the period
  from April 1, 2002 through September 30, 2002. This report is submitted to you in accordance
  with the requirements of Section 5 of the Inspector General Act of 1978, as amended.

         I appreciate your continuing support of this office.

  Attachment
             OFFICE OF THE INSPECTOR GENERAL
          COMMODITY FUTURES TRADING COMMISSION


                                SEMIANNUAL REPORT
                               FOR THE PERIOD FROM
                    April!, 2002 THROUGH September 30,2002


                             TABLE OF CONTENTS

SUM1v1ARY OF OIG ACTIVITIES [including a description of significant problems, abuses,
     and deficiencies and a description of OIG recommendations for corrective action
     (Mandated by Section 5(a)(1) and (2) of the Act)]                                      1
     AlJDITS                                                                                1
     IN'VESTIGATIONS                                                                        2
     LEGISLATIVE AND REGULATORY REVIEWS                                                     2

OIG RESPONSIBII..ITIES                                                                      3

OIG RESOURCES                                                                               4

CFTC PROGRAMS AND OPERATIONS                                                                4

COMPLETED WORK.                                                                             4
    AUDITS [including a list of each audit report issued and a summary of each particularly
    significant report (Mandated by Section 5(a)(6) and (7) ofthe Act)]                    .4
    IN'VESTIGATIONS                                                                         6
    LEGISLATIVE AND REGULATORY REVIEWS                                                      7

AUDIT REPORTS OVER SIX MONTHS OLD                                                           8

       CORRECTIVE ACTION NOT COMPLETED [including an identification of each
       significant recommendation described in previous semiannual reports on which
       corrective action has not been completed (Mandated by Section 5(a)(3) of the Act)]   8
       CORRECTIVE ACTION COMPLETED                                                          8
      MANAGEMENT DECISION NOT MADE [including a summary of each audit
      report issued before the commencement of the reporting period for which no management
      decision has been made by the end of the reporting period (including
      the date and title of each such report), an explanation of the reasons such a
      management decision has not been made, and statement concerning the desired timetable
      for achieving a management decision on each such report (Mandated by Section 5(a)(10)
      of the Act)]                                                                         9

SUMMARY OF MATTERS REFERRED TO PROSECUTIVE AUTHORITIES and
    the prosecutions and convictions which have resulted (Mandated by
    Section 5(a)(4) ofthe Act)                                                            9

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD
    under Section 6(b)(2) concerning infonnation or assistance unreasonably
    refused or not provided (Mandated by Section 5(a)(5) of the Act)                      9

REVISED MANAGEMENT DECISIONS [including description and explanation of
     the reasons for any significant revised management decision made during the
     reporting period (Mandated by Section 5(a)(II) of the Act)]                          9

INSPECTOR GENERAL DISAGREEMENT [including infonnation concerning any
     significant management decision with which the Inspector General is in
     disagreement (Mandated by Section 5(a)(12) of the Act)]                              9

CtJRRENT ADDITS                                                                          10

GAO LIAISON                                                                               14

STRATEGIC PLAN'                                                                           15

CONTACTING THE OFFICE OF THE INSPECTOR GENERAL                                           20

TABLE 1 -- REPORTS ISSUED WITH QUESTIONED COSTS
     (Mandated by Section 5(a)(8) of the Act)                                            21

TABLE 2 -- REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT
     TO BETTER USE (Mandated by Section 5(a)(9) ofthe Act)                               22




                                             11
                    INDEX OF IG ACT REPORTING
                          REQUIREMENTS

Section 5(a)(1)                                  1

Section 5(a)(2)                                  1

Section 5(a)(3)                                  8

Section 5(a)(4)                                  9

Section 5(a)(5)                                  9

Section 5(a)(6)                                  4

Section 5(a)(7)                                  4

Section 5(a)(8)                                 21

Section 5(a)(9)                                 22

Section 5(a)(1 0)                :               9

Section 5(a)(II)                                 9

Section 5(a)(12)                                 9




                                III
                       SUMMARY OF OIG ACTIVITIES


AUDITS

        The primary objectives of the Office of the Inspector General (OIG) of the Commodity
Futures Trading Commission (Commission, CFTC) are to help promote long-term efficiency and
effectiveness in the administration and operation ofthe Commission and to protect against fraud,
waste, and abuse. This reporting period's OIG audit activities, which are listed below, reflect
these objectives.

Current Audits

        The following are the audits being conducted during the current reporting period and
continuing into the next reporting period. (For additional details, see the section on current
audits beginning on page 9.)

       Review of Enforcement Information Reguirements. The objectives of this review are to
       detemrine what the information needs of all levels in the Division ofEnforcement are,
       whether the information needs are being met, and if the required information can be
       created, stored, and retrieved in a more effective and efficient manner. (For additional
       details, see page 10.)

       Review of Agency Compliance with GPRA. The Government Performance and Results
       Act of 1993 (GPRA) requires federal agencies to develop strategic plans, prepare annual
       plans setting performance goals, and report annually on actual performance compared to
       goals. The first report was prepared in March 2000. The objective ofthis review is to
       detemrine how effectively the Commission is complying with GPRA's terms. This will
       include an examination of the performance measures devised by the Commission and the
       systems used for gathering the data to report on those performance measures. (For
       additional details, see page 12.)

       Review ofEmployee Usage of Govemment Issued Travel Cards. The objective ofthis
       review is to determine whether employees are complying with the agency's policy for use
       of the cards. An initial review ofthe agency's existing policy regarding travel card
       usage has been conducted, and an audit plan is being prepared. (For additional details,
       see page 13.)

Completed Audits

         The following audits have been completed during this reporting period. (For additional
details, see the section on completed audits beginning on page 4.)-


                                                 1
       Evaluation of the CFTC Information Security Program and Practices, GISRA. The
       Government Information Security Reform Act (GISRA) requires the Inspector General or
       his designee to perform annual independent evaluations ofthe information security
       program and practices ofthe agency. (For additional details, see page 5.)

       Audit of Los Angeles Lease ofReal Estate. The objectives of this audit were to
       detennine if all payments were made in accordance with the terms of the lease
       agreement, whether established payment procedures were followed, and if the agency
       complied with the Prompt Payment Act. This was the first audit conducted by the Office
       of the Inspector General of the Los Angeles, California regional office lease agreement.
       This audit covered all payments for the subject lease for the period from July 1, 1993
       through December 31, 2001 for all office space leased in the building at 10900 Wilshire
       Boulevard, Los Angeles, California. (For additional details, see page 5.)

       Audit ofMinneapolis Lease ofReal Estate. The objectives of this audit were to
       detennine if all payments were made in accordance with the terms of the lease
       agreement, whether established payment procedures were followed, and ifthe agency
       complied with the Prompt Payment Act. This was the first audit conducted by the Office
       of the Inspector General ofthe Minneapolis, Minnesota office lease agreement. This
       audit covered all payments for the subject lease for the period from February 1, 1991
       through August 31, 2002 for all office space leased in the building at 410 South 4th Street,
       Minneapolis Minnesota. (For additional details, see page 6.)


INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General 'may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
to the public health and safety.

        Two investigations and one informal inquiry were pending as ofthe beginning of the
reporting period. The OIG opened one investigation during the reporting period and completed
three investigations and the informal inquiry. No investigations remained open at the end of the
period. (See the section on investigations beginning on page 6.)


LEGISLATIVE AND REGULATORY REVIEWS
        The OIG reviews proposed and final CFTC regulations and legislation and selected
exchange rules using the following basic criteria: whether the agency: (1) has identified
specifically the problem(s) to be addressed by the proposal; (2) has defined through case study or
data analysis a clear link between the proposed solution and the identified problem(s); (3) has


                                                2
specified clearly the means to effectively and efficiently enforce the proposal; (4) has assessed
the likely efficiency and effectiveness of alternative solutions; (5) can reasonably document that
the proposal will yield positive net benefits over the long tenn; and (6) has met the requirements
of the Regulatory Flexibility Act and 'the PapelWork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its infonnation collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

Legislative Activities

      The Inspector General continues to be heavily involved in legislative activities.
Congressional staff were briefed about the various IG issues.



                              OIG RESPONSIBILITIES


       The Office ofthe Inspector General in the Commodity Futures Trading Commission was
created in accordance with the Inspector General Act of 1978 (p.L. 95-452), as amended by the
Inspector General Act Amendments of 1988 (p.L. 100-504). The OIG was established to create
an independent unit to:

       •    Promote economy, efficiency, and effectiveness in the administration of CFTC
            programs and operations and detect and prevent fraud, waste, and abuse in such
            programs and operations;

       •    Conduct and supervise audits and, where necessary, investigations relating to the
            administration of CFTC programs and operations;

        •   Review existing and proposed legislation and regulations and make recommendations
            concerning their impact on the economy and efficiency of CFTC programs and
            operations or the prevention and detection of fraud and abuse; and

        •   Keep the Chainnan and Congress fully infonned about any problems or deficiencies
            in the administration of CFTC programs and operations and provide
            recommendations for correction of these problems or deficiencies.

       Given that the CFTC does not have extensive contracts or grant making authority, the
OIG's efforts have been focused on the review of legislative and regulatory proposals and the
monitoring of internal CFTC operations.




                                                 3
                                       OIG'RESOURCES

         The OIG consists ofthe Inspector General, two professional staffmembers, and a
 secretary. All positions have been filled since January 2,2000. The present Inspector General
 assumed his position on October 7, 1990.

         The OIG, on December 4, 1989, signed a Memorandum ofUnderstanding with the Office
. ofthe General Counsel (OGe). This Memorandum details the procedures that are used to
  provide the OIG with OGC legal services. An OGe staffmember has been assigned to provide
  such services to the OIG on an as-needed basis.



                   CFTC PROGRAMS AND OPERATIONS

        Congress created the Commodity Futures Trading Commission in 1974 as an
 independent agency with the mandate to regulate commodity futures and option markets in the
 United States. The Commission's mandate was renewed and/or expanded in 1978, 1982, 1986,
 1992, and 1995. In December 2000, the Commission was reauthorized'by Congress and the
 President through fiscal year (FY) 2005 with the passage of the Commodity Futures
 Modernization Act of 2000 (CFMA).

          The CFMA transformed the Commission from a front-line regulatory agency to an
 oversight regulator. Although the Commission's approach to regulation will change, the CFTC's
 mission remains unchanged. The CFTC continues to be responsible for fostering the economic
 utility of futures markets by encouraging their competitiveness and efficiency, ensuring their
 integrity, and protecting market participants against manipulation, abusive trade practices, and
 fraud. Through effective oversight regulation, the CFTC enables the commodity futures markets
 better to serve their vital function in the nation's economy --providing a mechanism for price
 discovery and a means of offsetting price risks.



                                 COMPLETED WORK

 AUDITS

        The OIG is required to conduct, supervise and coordinate audits of CFTC programs and
 operations and to ensure that the audits are conducted in accordance with generally accepted
 government auditing standards. The OIG is also required to recommend changes to existing and
 proposed CFTC programs and operations to promote economy, efficiency, and effectiveness and
 to prevent and detect fraud and abuse.




                                                4
          The purpose of these audits is to ensure that:

          •   Funds have been expended in a manner consistent with related laws, regulations, and
              policies;

          •   Resources have been managed effectively and efficiently;

          •   Stipulated program objectives have been achieved; and

          •   Resources have been safeguarded.

          The following audit reports have been issued during the reporting period.

1.        Evaluation of the eYre Information Security Program and Practices, GISRA

Objectives.

        The Government Information Security Reform Act requires the Inspector General or his
designee to perform annual independent evaluations of the information security program and
practices of the agency.

Status.

        To provide a comprehensive review of the Commission's security program, OIRM and
OIG jointly engaged a contractor. Using the information supplied by the contractor and the
program managers, the Inspector General responded to the areas raised by the OMB Guidance.
The evaluation covered the following systems: the General Support System, Trade Practice
Investigations System, Payroll and Personnel Systems, ISS Market Surveillance System, IFR
Company Financial Reporting System and the Financial Management System. The Financial
Management System consists of three components entitled Financial Management System,
Travel Manager System, and Electronic Certification System.

        In addition to the independent evaluation, the Inspector General produced an executive
summary characterizing the results ofthe independent evaluation of the agency's infonnation
security program and practices.

2.        Audit of Los Angeles Lease of Real Estate

Objectives.

       The objectives ofthis audit were to determine ifa11 payments were made in accordance
with the terms ofthe lease agreement, whether established payment procedures were followed,
and ifthe agency complied with the Prompt Payment Act. This was the first audit conducted by
the Office ofthe Inspector General ofthe Los Angeles, California regional office lease
agreement. This audit covered all payments for the subject lease for the period from July 1, 1993



                                                    5
through December 31, 2001 for all office space leased in the building at 10900 Wilshire
Boulevard, Los Angeles, California.

Status.

        The final report issued on July 15, 2002 stated that, generally, lease payments were made
in accordance with the tenns of the lease and the Prompt Payment Act.

3.        Audit of Minneapolis Lease of Real Estate

Objectives.

        The objectives of this audit were to detennine if all payments were made in accordance
with the terms of the lease agreement, whether established payment procedures were followed,
and if the agency complied with the Prompt Payment Act. This was the first audit conducted by
the Office ofthe Inspector General of the Minneapolis, Minnesota office lease agreement. This
audit covered all payments for the subject lease for the period from February 1, 1991 through
August 31, 2002 for all office space leased in the building at 410 South 4th Street, Minneapolis
Minnesota.

Status.

       The final report issued on September 25, 2002 indicated that payments were generally
made in accordance with the terms of the lease and the Prompt Payment Act.


INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
to the public health and safety.

        Two investigations and one informal inquiry were pending as ofthe beginning ofthe
reporting period. The OIG opened one investigation during the reporting period and completed
three investigations and the infonnal inquiry. No investigations remained open at the end ofthe
period. .

        The Commission asked the Inspector General to commence an investigation and report to
the Commission factual findings with respect to whether a CFTC official participated personally
and substantially in particular matters in which he mew he had a financial interest, and/or
willfully and mowingly failed to report his financial interest in a limited partnership and
distributions in the limited partnership on his annual financial disclosure reports. The Inspector
General found that the official did not participate personally and substantially in particular
matters in which he knew he had a financial interest and that the official did not willfully fail to


                                                 6
 file information required on financial disclosure forms. Accordingly, this investigation was
 closed.

         In response to a request from regional CFTC officials that the GIG investigate a series of
 unprofessional actions that were disrupting the flow ofwork in a regional office, the GIG opened
 an investigation. Through a series of interviews and an examination of documentation ofpast
 actions, the GIG documented the observed situation and recommended corrective action to
 responsible officials. Accordingly, this investigation was closed.

          At the request ofthe Chairman, the GIG conducted an informal inquiry into allegations
  that a former CFTC employee may have divulged confidential or non-public information,
  participated in matters as a CFTC employee in which he had a financial interest, converted
. government property for personal use, accepted an illegal bribe or gratuity, accepted employment
  in connection with a matter which was the same as, or substantially related to, a matter in which
  he participated personally and substantially as a public officer or employee, and/or revealed a
  confidence or secret of the CFTC. During the course of the inquiry, the GIG found no
  reasonable grounds to believe that the fonner employee had violated any federal statute or CFTC
  rule, but the GIG did find that the fonner employee may have potentially violated a District of
  Columbia Bar rule by accepting employment in connection with a matter which was ~e same as,
  or substantially related to, a matter in which he participated personally and substantially as a
  public officer or employee. The GIG reported this information to the Gffice ofthe Chairman for
  any action considered appropriate. Accordingly, this inquiry was closed.

         The Commission asked the Inspector General to conduct an investigation to assure that a
 CFTC official, from the time ofbeneficial acquisition ofprohibited financial interests, had not
 violated federal conflict of interest law and regulations. In response to that request, the Inspector
 General conducted an investigation. The OIG detennined that the official worked on no matters
 which concerned any entity related to the holdings of the trust in which the official has a
 beneficial interest. The GIG also determined that during this time, the official did not personally
 and substantially participate in any matters of general applicability to the futures industry which
 would have had a direct and predictable effect on the official's interests. Accordingly, this
 investigation was closed.


 LEGISLATIVE AND REGULATORY REVIEWS

         As specified in Section 4(a) (2) of the Inspector General Act of 1978, the GIG reviews
 the impact of existing and proposed legislation and regulations on CFTC programs and
 operations and makes recommendations regarding more effective or efficient alternatives or
 protections against fraud and abuse. The GIG also reviews exchange rule proposals and changes.

          The GIG has notified the responsible Division as to any concerns with draft and final
  documents for the legislation, rules or investigations listed below. Formal comments were not
  filed with the Commission.




                                                   7
RULE REVIEWS INITIATED IN PREVIOUS REPORTING PERIODS


1. Relevant Considerations for Default Judgements.

Summary of Action

      A question has been raised about the appropriate circumstances for the entry of default
judgements.

OIGReview

       OIG concluded its review of the issue and made recommendations. Staffis currently
reviewing the issue.

RULE REVIEWS INITIATED THIS REPORTING PERlOD


        The OIG has reviewed the numerous rules required by the Commodity Futures
Modernization Act of 2000 ("Act"). The Act altered the relationship of the Commission to the
futures industry in many regards. The rules sought to reflect this change.

Legislative Activities

       The IG continues to be involved in legislative activities and contact has been made with
congressional staff on various IG issues.


               AUDIT REPORTS OVER SIX MONTHS OLD


CORRECTIVE ACTION NOT COMPLETED
       There were no instances of audit reports over six months old where corrective action had
not been completed.

CORRECTIVE ACTION COMPLETED
        There were no instances ofreports issued before the commencement ofthe reporting
period for which corrective action had been completed by the end of the reporting period.




                                               8
MANAGEMENT DECISION NOT MADE

        There were no instances of reports issued before the commencement of the reporting
period for which a management decision had not been made by the end of the reporting period.


               SUMMARY OF MATTERS REFERRED TO
                  PROSECUTIVE AUTHORITIES

       No matters were referred to prosecutive authorities during the reporting period



               SUMMARY OF EACH REPORT MADE TO
                     THE AGENCY HEAD

        No reports were made to the agency head under section 6(b)(2) concerning information
or assistance unreasonably refused or not provided..



                  REVISED MANAGEMENT DECISIONS

       No management decisions were revised during the reporting period.



               INSPECTOR GENERAL DISAGREEMENT

      The Inspector General does not disagree with any management decisions on OIG
recommendations.




                                                9
                                      CURRENT AUDITS

           The audit agenda and priorities for the OIG are determined based on the following
factors:

           •   Statutory and regulatory requirements;

           •   Adequacy of internal control systems as indicated by vulnerability assessments and
               internal control reviews recommended by OMB Circular A-123;

           •   Changes in the program conditions or particular vulnerability ofthe organization,
               program, activity, or function to problems or deficiencies;

           •   Current and potential dollar magnitude and likely benefits of a review on the
               efficiency or effectiveness of CFTC programs and operations;

           •   Management priorities and improvements that may be possible;

           •   Results of audits of CFTC programs and operations by other Federal agencies; and

           •   Availability of audit resources and the potential opportunity costs to the agency.

       The audit agenda and summary ofprogress for each audit, which has not yet been
completed, is summarized below. New agenda items periodically will be added, as appropriate,
along with a description of the audit objective for each.

1.         Review of Enforcement Information Requirements

Objectives.

         The mission of the Division of Enforcement is to investigate and prosecute fairly and
effectively violations of the Commodity Exchange Act and the Commission's regulations in
order to safeguard the integrity ofU.S. futures and options markets and to protect market
participants and futures and options customers. In the course ofits activities, the Division, with
headquarters and regional components, plans and follows an often complex course to achieve its
objectives ·and receives and creates a huge volume of documents which must be logically stored
and regularly accessed. To support the accomplishment of these tasks, the Division is relYing on
a collection of very old manual and automated systems to track the progress of activities and to
store and retrieve documents. The objectives ofthis review are to detetmine what the
information needs of all levels in the Division are, whether the information needs are being met,
and if the required information can be created, stored, and retrieved in a more effective and
efficient manner.




                                                    10
Status.

        The joint OIG/Division of Enforcement team produced extensive and detailed narrative
flow charts of the current operational and administrative functions and processes of the Division
ofEnforcement and delivered them to the Division ofEnforcement and the Office oflnfonnation
Resources Management (OIRM). These products were designed to infonn the analysts in OIRM
of the inner workings of the Division ofEnforcement and to serve as the base on which the
information requirements of the Division of Enforcement will be defined.

       In September 1997, in a joint meeting ofrepresentatives ofthe Division ofEnforcement,
the OIG, and OIRM, the principals made commitments of six staff years of effort from OIRM
and approximately three staff years of effort from the Division ofEnforcement to define the
system requirements ofthe Division.

        The Division ofEnforcement and OIRM agreed that the first priority was the
development of a system to track documents in the Division of Enforcement in accordance with
the Division's Enforcement Procedure Number 3. The second phase was devoted to installing a
system to track production within the Division and to report that information in the required
formats to management ofthe Division. Phase three will concentrate on moving the functions of
the attorneys and investigators from paper to computer screen and using the resulting
information to improve the tracking ofproductivity information and the sharing of information
within the Division.

       The final version of the first phase of what was being called "the Enforcement
Modernization Project" was delivered to the Division of Enforcement in May 1998. This
Enforcement Procedure Number 3 System is now being used at all locations of the Division.
The second phase, a system which produces the monthly status reports from ail parts of the
Division and maintains on screen data on the current status of all matters within the Division, has
been completed. Training in the use of this system was completed during March 1999.

         Phase Three, designed to present the Division of Enforcement with a case management,
litigation support, and document management system, to tie together the first two systems with
this new sYstem, and to automate as many ofthe remaining Enforcement Division processes as
possible, began with a survey of appropriate off-the-shelf systems and an investigation of
currently available software and hardware which may meet the bulk of identified needs.
Difficulties in maintaining contractor resource levels led to delays in the pursuit ofPhase 3. A
team consisting of staff from the Division ofEnforcement, OIRM, and contractor personnel was
engaged in a review of available off-the-shelf case management, litigation support, and
document management software from the beginning of Calendar Year 2000.

   As a result of this review of available off-the-shelf software, the Division ofEnforcement
and OIRM developed a list ofrequirements. A Request for Proposals reflecting those
requirements was issued on July 19,2000. None of the responses received fully met the
requirements specified in the Request for Proposals.




                                                 11
    In FY 2001, the agency's Executive Management Council (EMC) formed an Integrated
Project Team (IPT) to define the systems requirements of the Division of Enforcement, examine
alternative methods for meeting the requirements and recommend a solution. The solution,
defined by the IPT and known as the e-law project, assumed the availability of$3.7 million to
fund the purchase and maintenance of all elements of the proposed solution over a number of
fiscal years.

    A total of$1.15 million ofFY 2001 money was set aside for the implementation ofthe e-law
project defined by the IPT. Congress added $2.6 million to the e-law project to insure the
availability ofDivision of Enforcement records in the event of a repeat of the September 11,
2001 terrorist attack. With the full $3.7 million now available for implementation, the agency
expects to move forward expeditiously with the purchase of all of the elements of the e-law
system.

2.        Review of Agency Compliance with GPRA

Objective.

        The Government Performance and Results Act of 1993 requires federal agencies to
develop strategic plans, prepare annual plans setting performance goals, and report annually on
actual performance compared to goals. The first report was prepared in March 2000. The
objective of this review is to determine how effectively the Commission is complying with
GPRA's terms. This will include an examination of the performance measures devised by the
Commission and the systems used for gathering the data to report on those performance
measures.

Status.

        In response to Congressional interest, the Office ofthe Inspector General consulted with
and advised the Commission's operating divisions concerning GPRA requirements. The Office
of the Inspector General reviewed the Commission's FY 2001, FY 2002 and FY 2003 Annual
Performance Plan before each was submitted to Congress. Subsequently, the OIG selectively
reviewed the FY 1999, FY 2000 and FY 2001 Annual Performance Reports after they were
submitted to Congress. The DIG concluded that the agency had made improvements in defining
its goals and identifying measures for reaching its stated goals.

        The Commodity Futures Modernization Act, which was enacted in fiscal year 2001,
fundamentally changed the regulatory structure for the commodity futures markets. The
Commission adopted new rules and procedures consistent with the regulatory reforms presented
in that Act. This wholesale change in approach challenged each operating division to redefine its
service goals under GRPA. The agency implemented a reorganization that allows the                   '<,
Commission to more effectively respond to the new Act.

        The Office of the Inspector General participated in a number of discussions on how to
best reflect the agency's new regulatory paradigm in structuring future goals and measures under
GPRA. In conjunction with other federal agencies' Inspectors General, the Office ofthe



                                               12
Inspector General is participating in the development ofbest practices for measuring compliance
with the requirements of GPRA. During the second quarter, the OIG will review the goals and
objectives prepared by the senior managers for adherence to the requirements of GPRA. After
this review, the OIG will verify and validate a subset of the data submitted in the GPRA report.

3.        Review of Employee Usage of Government Issued Travel Cards

Objective.

       Government authorized credit cards are issued to employees for use during authorized
Government travel. The objective of this review is to examine agency employees' travel card
usage since 1999 and to ascertain whether that usage complied with the agency's policy.

Status.

        The OIG has reviewed the agency's policy regarding travel card usage, and an audit plan
is being prepared.




                                               13
                                      GAO LIAISON


        The OIG is charged with providing policy direction for, and conducting, supervising, and
coordinating audits and investigations relating to CFTC programs and operations. In addition,
the OIG is required to recommend policies for, and conduct, supervise, and coordinate with other
Federal agencies, state and local Governmental agencies, and nongovernmental entities, audits,
investigations, and evaluations regarding the economy, efficiency, and effectiveness of CFTC
programs and operations.

       GAO also conducts audits of CFTC activities, and OIG plans its audits so as not to
duplicate GAO's efforts. Moreover, OIG in its audits activities identifies the goals of each audit
and the methods ofreaching the goals so as to minimize the requirements placed on CFTC
resources.




                                                14
                         STRATEGIC PLAN
                             FOR THE
                 OFFICE OF THE INSPECTOR GENERAL


INTRODUCTION

        The Office of the Inspector General (OIG) in the Commodity Futures Trading
Commission (CFTC) was created in accordance with the Inspector General Act of 1978 (P.L. 95-
452), as amended by the Inspector General Act Amendments of 1988 (P.L. 100-504). The OIG
was established to create an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration ofCFTC
           programs and operations and detect and prevent fraud., waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and investigations relating to the administration of
           CFTC programs and operations;

       •   Review existing and proposed legislation and regulations and make recommendations
           concerning their impact on the economy and efficiency of CFTC programs and
           operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chairman and Congress fully informed about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction ofthese problems or deficiencies.

        Accordingly, the OIG has established three programs to carry out its responsibilities:
audit, investigation, and legislative and regulatory review. A summary ofthose programs
follows.

AUDIT

        The primary objectives of the OIG are to promote long-term efficiency and effectiveness
in the administration and operation of the Commission and to protect against fraud and abuse.

        The key to effectively and efficiently managing the CFTC is information. Top level
managers and decision makers require a steady stream of organized data on the effects oftheir
policy decisions and resource allocations on the operations of the Commission. Once having
made the decision to change resource levels or policy, managers must receive accurate and
timely reports of the operational effects of their decision so they can determine ifthe change is in
the direction and of the magnitude predicted. In the absence of such information, top level
managers cannot adequately perform their jobs.




                                                 15
        A number of obstacles to acquiring and transmitting the desired information to decision
makers may exist in some programs. Principal among them is the Commission's apparent
difficulty in many instances in tracking the progress of a particular action across organizational
lines within the Commission.

        A simple example is the Reparations Program prior to the installation of an OIG
recommended unified, Commission-wide tracking system. Complaints are received and
processed and hearings are held in the Office ofProceedings; appeals of initial decisions in
reparations cases are transmitted to the Office of the General Counsel where proposed
Commission opinions are drafted; and appeals are decided by the Commission with the
paperwork being handled by the Office ofthe Secretariat. Each office involved in the process
had a separate tracking system without ties to the tracking systems in the offices preceding them
or following them in the process. Each office treated the case as ifit were brand new to the
Commission when they received it. As a result, there was no provision for tracking information
across organizational lines. If the Chairman wanted to mow how much time was spent on the
average reparations case of a particular description at each stage in the process, that information
was unavailable without an extensive expenditure ofmanual labor.

        A related problem is the difficulty the Commission has in associating resources devoted
to an activity with the results ofthat activity. The Commission does a good job oftracking
resources expended. It can determine how much stafftime and material at what cost was spent
in a particular activity. Some Commission organizations can even associate costs with particular
projects. What a program manager may have great difficulty doing, however, is telling a
decision maker that for a specific level or increase in resources, the program manager will
deliver a specific level of increased output. Without this information from all programs
competing for limited resources, decision makers cannot make reasoned resource allocation
judgements. Decision makers are forced to rely on intuition and anecdotal evidence.

       To increase the efficiency and the effectiveness of the management ofCFTC programs
and operations, the OIG will, in addition to conducting mandatory audits, concentrate its audit
resources on the identification of information voids and the lack of continuity in the flow of
information across organizational lines from the beginning of a process until its conclusion. The
OIG will recommend the implementation of any system improvements where the benefits of
implementing the change exceed the costs.

        In addition to our efforts to bring technology to bear on the information requirements of
the Commission, the GIG has been following the Commission's development ofmeasures and
systems ofmeasurement in response to the Government Performance and Results Act (GPRA).
As the Commission implements GPRA, the OIG will devote significant resources to monitoring
agency performance to insure that the data is accurately gathered and that the measures reported
are the best available for demonstrating program performance.

INVESTIGATIONS

       The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning


                                                 16
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to
the public health and safety.

        The OIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. This reactive program has
resulted in only a handful of investigations per year. This strategy was followed because the
OIG believed that an independent regulatory agency such as the CFTC without grant money or
substantial contracts to award was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach the OIG, a 24-hour hotline was
established in February 1993 to receive complaints. The hotline's existence is publicized in the
agency-wide telephone book and in this semiannual report.

       Because ofthe reactive nature ofthe OIG's investigative program, no investigative
agenda has been established.

LEGISLATIVE AND REGULATORY REVIEW

        Because of the importance of this activity in an economic regulatory agency, the OIG
reviews proposed and final CFTC regulations and legislation and selected exchange rules using
five basic criteria: Whether the agency: (1) has identified specifically the problem(s) to be
addressed by the proposal; (2) has defined through case study or data analysis a clear link
between the proposed solution and the identified problem(s); (3) has specified clearly the means
to effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency and
effectiveness of alternative solutions; (5) can reasonably document that the proposal will yield
positive net benefits over the long term; and (6) has met the requirements of the Regulatory
Flexibility Act and the PapelWork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The PapelWork Reduction Act requires the agency to manage
effectively and efficiently its infonnation collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

        Because the OIG does not initiate legislation or, generally, regulations, the OIG
legislative and regulatory review program is reactive to the legislative and regulatory proposals
developed by others. Accordingly, no independent legislative and regulatory review agenda has
been established.




                                                17
                                       AUDIT AGENDA

ANNUAL AUDITS

       The following audit is performed on an annual basis.

Audit of Compliance with the Federal Managers' Financial Integrity Act

       In support of O:rvm Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance, and advise the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

OTHER AUDITS

        The OIG intends to focus the balance ofits audit resources on insuring that the Chairman,
the Commissioners, and program managers have timely, useful information on the progress of
the CFTC's programs in meeting their goals and objectives. For example, emphasis will be
placed on detennining whether all managerial levels engaged in a process can track the progress
oftheir various programs. The tracking systems required in many, though not all, programs will
cross formal organizational lines.

         These audits will entail a cataloging and description of all ofthe manual and automated
systems used by an organization to gather information on its use ofresources, the results of the
devotion ofthose resources (including definitions of measurements ofaccomplishment), and the
reporting of results and associated costs to the upper level managers in the Division and to the
Chainnan and the Commissioners. Cataloging of these decision support systems will be
followed by an assessment ofwhether all concerned officials are timely receiving the
information they require to efficiently allocate resources to those uses which best accomplish the
priorities of the Commission. If any elements are lacking in the information systems, they will
be identified and improvements will be recommended if they can be implemented in a
costlbeneficial manner.

        If recommendations are successfully implemented, the proposed systems should allow
the Chairman, the Commissioners, and concerned program managers to track the progress of a
particular program across organizational lines and to quickly determine the effects, if any, of
changes in policy, procedure, or staffing.

      The first step in accomplishing this goal will be to concentrate on documenting, and
recommending the improvement and/or development of tracking systems in every program
element throughout the Commission.

       In addition to our focus on facilitating the development of an efficient flow of
information throughout the agency, the OIG will devote resources to the audit of compliance
with the terms of agency contracts (such as, leases of space in New York, Chicago, Los Angeles,
and Washington, D.C.), the collection of funds (such as, compliance with the terms of the Debt
Collection Improvement Act of 1996 and the resultant Memorandum ofUnderstanding with


                                                18
Treasury), and agency compliance with Congressional mandates (such as, the Government
Performance and Results Act and the Government Information Security Reform Act).

RESOURCESREQumED
        The DIG estimates that approximately one staff year of effort will be devoted over each
of the next five years to the development of an efficient flow of information throughout the
agency. Nine-tenths of a staff year of effort will be devoted over each ofthe next five years to
the compliance audits described above. The "Annual Audits" are expected to consume
approximately one-tenth staff year per year.




                                                19
                       CONTACTING THE OFFICE OF THE
                           INSPECTOR GENERAL


        The OIG is located at 1155 21 st Street, N.W., Washington, D.C. 20581. The telephone
number is (202)418-5110. The facsimile number is (202)418-5522. The hotline number is
(202)418-5510. Regular business hours are between 8:30 AM and 5:00 PM, Monday through
Friday, except Federal holidays.




                                                                                               ..,




                                              20
                                              Table 1
                                 Reports Issued with Questioned Costs
                                 (Aprill, 2002 - September 30, 2002)


                                                                        Dollar Value
                                                                         Thousands
                                                     NWI1ber     Questioned Unsupported

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                   o               o        o
B.   Which were issued during the reporting
     period                                             o               o        o
     Subtotals (A + B)                                  o               o        o
c.   For which a management decision was
     made during the reporting period                   o               o        o
     (I)      dollar value of
              disallowed costs                          o               o        o
     (ii)     dollar value of costs not
              disallowed                                o               o        o
D.   For which no management decision
     has been made by the end of the
     reporting period                                   o               o        o




                                              21
                                              Table 2
                             Reports Issued with Recommendations
                                That Funds be Put to Better Use
                              (Aprill, 2002 - SepteRlber 30, 2002)


                                                              Dollar Value
                                                   Number      Thousands

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                o               o
B.   Which were issued during the reporting
     period                                          o               o
     Subtotals (A + B)                               o               o
c.   For which a management decision was
     made during the reporting period                o               o
     (i)      dollar value of
              recommendations that
              were agreed to by management
                                                     o               o
     (ii)     dollar value of
              recommendations that
              were not agreed to by
              management                             o               o
D.   For which no management decision
     has been made by the end of the
     reporting period                                o               o




                                              22
,
        The InspectorGeneral'
        needsyourhelpto
        assurethe integrity of
        CFTC's programs.



Report FRAUD, WASTE
or ABUSE to the
INSPECTOR GENERAL

    OTLINE
(202)418-551 0
    Office of the Inspector General
 Commodity Futures Trading Commi'ssion
        1155 21ST Street, N.W.
        Washington, D.C. 20581
